               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                 Postal Service
         Injury Compensation Program

                       Audit Report




                                              July 25, 2013

Report Number HR-AR-13-004
                                                                         July 25, 2013

                                                              Postal Service Injury
                                                            Compensation Program

                                                       Report Number HR-AR-13-004



BACKGROUND:                                  responds to a request from the Postal
U.S. Postal Service employees are            Service’s vice president and controller.
covered by the Federal Employees’
Compensation Act, which provides             WHAT THE OIG FOUND:
benefits to civilian federal employees       Postal Service management needs to
who sustain an injury or occupational        improve their administration of workers'
disease as a result of their employment.     compensation claims. Management did
The U.S. Department of Labor                 not consistently determine staffing levels
administers, implements, and enforces        and has reduced the number of staff
this act. The Postal Service manages         significantly since 2009. Additionally,
efforts to return injured employees to       some health and resource management
work through its Injury Compensation         personnel were used for collateral duties
Program. For the 2012 billing period,        and nurses were not fully used in case
the Postal Service incurred more than        management. Further, specific
$1.3 billion in workers' compensation        performance measures did not exist nor
costs and paid more than $68 million in      did personnel receive adequate training.
administrative fees ― an increase of
more than 25 and 23 percent,                 In the Western Area, we identified
respectively, since the 2009 billing         internal best practices to more effectively
period.                                      return employees to work, such as an
                                             automated work search system and a
The U.S. Postal Service Office of            quick reference guide for case
Inspector General (OIG) audits               management. We also identified industry
Postal Service programs to help              practices for an effective workers’
determine whether they are efficient and     compensation program, including using
cost-effective and has the authority and     nurse case managers, partnering with
responsibility to investigate workers’       non-profit organizations, and using
compensation fraud involving                 predictive analytics. We determined the
Postal Service employees. Such               Postal Service can reduce the number of
investigations help protect Postal Service   employees receiving workers'
funds by detecting, deterring, and           compensation and save more than
reducing health care fraud.                  $85.5 million annually.

Our objectives were to assess the Postal     The OIG uses predictive modeling to
Service’s administration of workers’         help identify high-risk workers’
compensation claims and identify             compensation claims. Predictive
opportunities to reduce these costs by       modeling data has allowed agents to
implementing best practices. This report     bring investigations to a successful
resolution and has resulted in higher
monetary impacts. Since October 2011,
OIG investigators initiated 102 cases
from predictive modeling data, resulting
in $9.5 million in recoveries, restitutions,
and workers’ compensation payments
avoided.

WHAT THE OIG RECOMMENDED:
We recommended management conduct
a formal staffing analysis to include using
contract nurses for case management,
establish district performance measures
based on cost reductions, and implement
a nationwide work search system, along
with district rehabilitation program
committees. We also recommended
management establish a standardized
quick reference guide, provide
automated reminders of key tasks,
explore the return-to-work benefits of
partnerships with non-profit
organizations, and evaluate the use of
predictive analytics.
Link to review the entire report
July 25, 2013

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                           VICE PRESIDENT

                           MEGAN J. BRENNAN
                           CHIEF OPERATING OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           ROSEMARIE FERNANDEZ
                           ACTING VICE PRESIDENT, EMPLOYEE RESOURCE
                           MANAGEMENT

                                      E-Signed by Michael A. Magalski
                                   VERIFY authenticity with eSign Desktop




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Postal Service Injury Compensation
                           Program (Report Number HR-AR-13-004)

This report presents the results of our audit of the Postal Service Injury Compensation
Program (Project Number 12YG035HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Timothy F. O’Reilly
    Linda DeCarlo
    Vice Presidents, Area Operations
    Corporate Audit and Response Management
Postal Service Injury Compensation Program                                                                           HR-AR-13-004




                                                TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Staffing ............................................................................................................................ 2

   Staffing Determinations ............................................................................................... 2

   Staff Reductions .......................................................................................................... 3

   Collateral Duties .......................................................................................................... 3

   Nurses as Part of Case Management .......................................................................... 4

   Support for Third-Party Recoveries ............................................................................. 4

Internal Best Practices, Resources, and Tools................................................................ 5

   Electronic Work Search System .................................................................................. 6

   District Assessment Teams ......................................................................................... 6

   Simplified Guidance ..................................................................................................... 7

   Automated Reminders for Key Duties ......................................................................... 7

   Performance Measures or Other Incentives ................................................................ 8

   Claims Management Training ...................................................................................... 8

Lean Six Sigma ............................................................................................................... 9

External Best Practices ................................................................................................. 10

   Nurse Case Managers ............................................................................................... 11

   Non-Profit Organizations ........................................................................................... 12

   Predictive Modeling ................................................................................................... 12

Efforts to Combat Fraud ................................................................................................ 13

Recommendations ........................................................................................................ 14
Postal Service Injury Compensation Program                                                                     HR-AR-13-004



Management’s Comments ............................................................................................ 15

Evaluation of Management’s Comments ....................................................................... 16

Appendix A: Additional Information ............................................................................... 18

   Background ............................................................................................................... 18

   Objectives, Scope, and Methodology ........................................................................ 19

   Prior Audit Coverage ................................................................................................. 22

Appendix B: Monetary Impact ....................................................................................... 26

Appendix C: Blog and Survey Results........................................................................... 28

Appendix D: Benchmarking Organization Profiles ......................................................... 30

Appendix E: Management's Comments ........................................................................ 32
Postal Service Injury Compensation Program                                                           HR-AR-13-004



Introduction

This report presents the results of our audit of the U.S. Postal Service Injury
Compensation Program (Project Number 12YG035HR000). The report responds to a
request from the vice president and controller and addresses financial risk. Our
objectives were to assess the Postal Service’s administration of workers’ compensation
claims and identify opportunities for reducing workers’ compensation costs by
implementing internal or external best practices. 1 See Appendix A for additional
information about this audit.

The U.S. Department of Labor’s (DOL) Office of Workers' Compensation Programs
(OWCP) has the exclusive authority, except as otherwise provided by law, to
administer, interpret, and enforce the Federal Employees’ Compensation Act (FECA).
The DOL pays providers, claimants, and beneficiaries; however, the Postal Service
reimburses the DOL for costs related to Postal Service workers’ compensation claims
and must pay the DOL a fee to administer the program for Postal Service employees.

While facing diminishing revenue and limited resources for proactive case management,
the Postal Service incurred more than $1.3 billion in workers' compensation costs and
more than $68 million in administrative fees for chargeback year2 2012. These costs
and fees increased by more than 25 and 23 percent, respectively, since chargeback
year 2009. As of December 2012, the Postal Service had 16,999 employees on the
periodic roll 3 and was facing a long-term workers’ compensation liability of $16.5 billion.

Conclusion

Postal Service management needs to improve their administration of workers'
compensation claims. We determined that management did not consistently determine
staffing levels and reduced the number of staff significantly since 2009. Additionally,
some health and resource management (HRM) personnel were used for collateral
duties and nurses were not fully used in case management. Further, management had
not established specific performance measures to ensure return-to-work efforts and
associated cost reductions are a priority and HRM staff did not receive adequate
training. We identified internal best practices implemented in the Western Area to more
effectively and efficiently return employees to work. We also identified industry best
practices for an effective workers’ compensation program including using nurse case
managers, partnering with non-profit organizations, and using predictive modeling to
better manage high-cost claims. We determined the Postal Service can reduce the

1
  This report does not concern, and we did not examine, the Postal Service’s obligations to disabled employees under
the Rehabilitation Act and the Americans with Disabilities Act. The U.S. Postal Service Office of Inspector General
(OIG) and the Postal Service are aware that these statutes may impose obligations upon the Postal Service that are
not treated in this report.
2
  Chargeback refers to the process the OWCP uses to bill employing agencies for its compensation costs. The
chargeback year (July 1 through June 30) is the period for which the DOL bills agencies for OWCP benefits.
3
  Employees who receive workers’ compensation benefits and have disabilities that are expected to be permanent or
prolonged (more than 60-90 days).
                                                           1
Postal Service Injury Compensation Program                                                           HR-AR-13-004



number of employees receiving workers' compensation and save more than
$85.5 million annually. See Appendix B for our calculation of monetary impact.

Staffing

Districts do not have the appropriate complement of HRM staff to effectively manage
workers’ compensation claims. We found that the Postal Service did not consistently
determine the number of district HRM specialists needed and they significantly reduced
HRM staff 4 in recent years. Additionally, some districts use HRM staff for work outside
of their workers’ compensation duties and do not take full advantage of nurses’ medical
expertise in their case management and return-to-work efforts. Finally, specially trained
employees or contractors are not used to pursue third-party recoveries. 5 These
conditions occurred because the Postal Service did not conduct a formal staffing
analysis 6 to determine the appropriate number and type of district HRM staff needed to
effectively support case management activities. As a result, there is an increased risk
that injured employees will not return to work once medically able to do so and that staff
will not pursue third-party recoveries and potential fraud.

Staffing Determinations

Management did not consistently determine district HRM specialist staffing needs and
the staffing guidance 7 does not account for other collateral duties. Also, we determined
the majority of those districts with a lower percentage of periodic roll employees had
staffing levels above staffing guidance levels. In fact, all of the districts in the Western
Area with periodic roll percentages below the median 8 exceeded the specialist staffing
guidance. For the 33 districts with periodic roll percentages below the median, 9 27
exceeded the number of HRM specialists recommended by the guidance and only one
was below the guidance. For example, the Central Plains District’s periodic roll
percentage was only .33 percent and it had two more specialists than recommended by
the guidance. For the 33 districts with periodic roll percentages greater than the median,
nine exceeded the number of HRM specialists recommended and 10 fell short. For
example, the Bay-Valley District’s periodic roll percentage was 6.49 and it was short
one specialist. See Table 1 for a summary of our results.




4
  District HRM staff consists of managers, specialists, and nurses.
5
  A third-party liability case exists when an employee's compensable injury or death results from circumstances that
create a legal liability on some party other than a U.S agency.
6
  A formal staffing analysis could include surveys, focus groups, and job duty audits.
7
  The Postal Service staffing guidance recommends one specialist for every 322 new claims filed and one specialist
for every 200 periodic roll cases.
8
  The middle number in a given sequence of numbers.
9
  We determined the median periodic roll percentage for the 67 districts was 2.35. We then determined the authorized
number of staff for districts below and above the median percentage. Overall, the districts below the median had 37
more specialists and the districts above the median had one less specialist based on the staffing guidance.

                                                         2
Postal Service Injury Compensation Program                                                            HR-AR-13-004




                             Table 1 – HRM Staffing Compared to Guidance
                                                33 Districts                         33 Districts
                                             With Periodic Roll                   With Periodic Roll
                                           Percentages Below the                Percentages Above the
          Staffing Levels                         Median                               Median
     Above Staffing Guidance                                    27                                    9
     Meeting Staffing Guidance                                   5                                   14
     Below Staffing Guidance                                     1                                   10
     Source: OIG analysis.

Staff Reductions

Nationwide, HRM staff has been reduced without sufficient justification, such as a
formal analysis. Since 2009, the Postal Service has reduced the nationwide HRM
authorized staffing complement, excluding nurses, by 135 (29 percent), although the
number of periodic roll employees has increased each year. 10 For example, the current
authorized staffing complement in the New York and Bay Valley 11 districts is five each,
including the manager. Officials stated that the previous staff complements for those
districts were eight and nine, respectively. According to district officials, while the
complement was reduced, the workload either increased or remained the same. Also, in
our survey, 28 of 36 respondents indicated there were not enough HRM specialists to
process and manage claims. 12

In addition to the HRM specialist reductions, management reduced the complement of
its unionized occupational health nurses (OHNs). A 2009 memorandum of
understanding authorized a complement of 94 OHNs nationwide. 13 As of February
2013, the Postal Service’s OHN complement has decreased from 130 to 59
nationwide. 14

Collateral Duties

Officials at seven of eight districts we visited indicated they use HRM staff for work
outside of their workers’ compensation duties. For example, districts use HRM
specialists for rural route counts, as lobby greeters, and for verification of scanning and
mail dispatches. We also found one district HRM manager who stated that she spends

10
   As of January 2013, there were 38 headquarters staff and 300 district HRM managers and specialists.
11
   The district had only two specialists processing claims due to a long-standing vacancy and a specialist on extended
sick leave.
12
   We published a blog and surveyed HRM employees regarding their experiences and challenges with the workers’
compensation program. (see Appendix C for overall results.)
13
   Postal Service and American Postal Workers Union Memorandum of Understanding on Occupational Health
Nurses (OHN) Business Plan, dated September 10, 2009. The OHN staffing model calls for zero, one, or two nurses
per district depending on the number of employees.
14
   In addition to OHN, the Postal Service typically uses one Occupational Health Nurse Administrator at each district.

                                                          3
Postal Service Injury Compensation Program                                                            HR-AR-13-004



about 60 percent of her time performing duties other than those related to the Injury
Compensation Program. Another HRM manager was also a member of three
committees and was required to complete critical tasks outside of the Injury
Compensation Program. Additionally, 75 percent of the respondents to our survey
agreed that the HRM office had to perform work not directly related to workers’
compensation duties and that it interfered with their ability to manage cases.

Nurses as Part of Case Management

The Postal Service did not fully use its nurses to support case management. Most
nurses we interviewed indicated that they spend only a small percentage of their day on
the Injury Compensation Program. Additionally, HRM managers and specialists stated
that nurses currently have a limited role in case management and they would welcome
the nurses' expertise to assist with case management. Further, 92 percent of the HRM
staff surveyed agreed that Postal Service nurses should have a more active role in
supporting the HRM function and our benchmarking results support the use of nurses
as a best practice.

In 2008 the Postal Service implemented a nurse case manager program in which
nurses called injured employees to check on their medical status and care. Each district
that participated had a unique contract and process for using the nurses, which resulted
in the inconsistent and sometimes incorrect use of the nurses, such as assigning them
filing duties. The Postal Service discontinued the program in 2010, because it was not
yielding the desired results and there was a lack of employee cooperation as well as an
overlap with the DOL’s Nurse Intervention Program. 15 The nurses’ position descriptions
state they can provide guidance, act as medical liaisons with the OWCP, review and
interpret medical documentation, and contact physicians for clarification of medical
status and restrictions as needed. Therefore, opportunities exist for the Postal Service
to enhance case management by more actively using its nurses or external contract
nurses who have knowledge of the clinical aspects of a case from an educated medical
perspective versus a specialist who may not have a medical background.

Support for Third-Party Recoveries

In fiscal year (FY) 2012, the Postal Service collected more than $12 million in third-party
recoveries, but as of Quarter (Q) 3, FY 2012, 9,843 open cases represented more than
$84 million. A third-party liability case exists when a person or organization other than
the Postal Service or another U.S. agency (third-party) is responsible for a job-related
injury or illness. For example, a third-party claim may apply when injuries result from
automobile accidents or animal attacks. With some exceptions, the Postal Service has
an agreement with the OWCP that allows it to administratively pursue recovery of
damages from the third party. Postal Service policy states that when potential third-party
cases are identified, personnel should assess the feasibility of attempting to recover

15
  The Nurse Intervention Program uses registered nurses to provide intervention at the earliest stages of disability
management. The nurse provides liaison services to assist in medical and claims management with a return-to-work
focus.

                                                          4
Postal Service Injury Compensation Program                                      HR-AR-13-004



damages and take specific steps, such as investigating the incident, assigning
responsibility for pursuing the recovery, monitoring progress, and negotiating
settlements.

HRM managers and specialists we interviewed stated that they devote most of their
time to processing initial claims and OWCP forms and do not have time to pursue
third-party liabilities. Also, management in one district removed the option for the
employee to assign the claim to the Postal Service. In addition, some specialists do not
believe they have the necessary skills to pursue some of the third-party claims and 19
of 29 employee training records we reviewed did not show third-party training. Finally,
as shown in Table 2, we reviewed 62 case files and found that 49 did not contain
relevant documentation to show that third-party liabilities were properly pursued.

                  Table 2 – Workers’ Compensation Case File Analysis
                                                Did not contain consistent
                                               and relevant documentation
                                                 for pursuit of third-party
                         District                       recoveries
                   Bay-Valley                             11 of 11
                   Central Pennsylvania                    8 of 10
                   Central Plains                          4 of 10
                   Greater Boston                          7 of 10
                   New York                               10 of 10
                   Sacramento                              9 of 11
                   Total                                 49 of 62
                  Source: OIG analysis of OWCP cases.

The Postal Service should determine, as part of its staffing analysis, the resources
needed to effectively pursue third-party liabilities, which may include using third-party
contingency contractors or dedicated employees with special skills and training in this
area.

Overall, a formal staffing analysis should enable the Postal Service to identify the
optimal district staffing of HRM specialists, nurses, and other support staff to more
effectively manage the Injury Compensation Program and reduce costs.

Internal Best Practices, Resources, and Tools

We identified internal best practices that could benefit the Postal Service’s Injury
Compensation Program if implemented nationwide. Additionally, management needs to
enhance other resources and tools to more effectively and efficiently return employees
to work and complete other case management activities (see Table 3).




                                                   5
Postal Service Injury Compensation Program                                                          HR-AR-13-004




                    Table 3 – Best Practices, Other Resources, and Tools

                                        Electronic work search system.
                                        District committees that include operations staff and
        Best Practices                  other employees outside of HRM to assist with work
                                        searches.
                                        Simplified guidelines for HRM specialists to easily
                                        reference and understand key tasks.
                                        Automated reminders for HRM specialists to facilitate key
     Other Resources and                case management activities.
            Tools                       District performance measures or other incentives.
                                        Claims management training for HRM personnel.
Source: OIG analysis.


Electronic Work Search System

The Western Area developed the Web Employee Search Program (WebESP), an
electronic search tool to assist in searching for work in the limited duty and rehabilitation
process. The Western Area’s periodic roll numbers16 are significantly better than that of
other areas, in part, because of the WebESP. District officials outside the Western Area
manually search for available work within a 50-mile radius, which is time-consuming 17
and increases the risk that available work will not be identified for employees with
restrictions. During our audit, the Postal Service indicated that it is implementing the
WebESP nationwide; however, management did not provide a completion date.

District Assessment Teams

During the National Reassessment Process, the Postal Service used District
Assessment Teams (DAT) to facilitate injured employees’ return to work. After this
process ended, some districts continued to use the teams to support their return-to-work
efforts although there were no nationally defined roles and responsibilities. The two
districts we reviewed in the Western Area used their DATs, which included operations
staff, to assist with work searches. For example, the Colorado/Wyoming District, whose
periodic roll percentage was below the median, had two full-time DAT members and
reported that, as of March 2013, 10 percent of employees (50) with medical restrictions
were classified as not working. The Central Plains District, whose periodic roll
percentage was also below the median, had 19 DAT members who performed work
searches outside of the employee’s facility. Consequently, the Central Plains District
only had 30 periodic roll employees. Other districts we visited only used a part-time

16
   As of Q3, FY 2012, the Western Area’s percentage of periodic roll employees to on-the-rolls employees was 1
percent. The next lowest percentage was the Great Lakes Area with 2 percent and the highest was the Pacific Area
with 4.6 percent of employees on the periodic roll.
17
   The return-to-work search uses a 10-step process starting with the employee’s current job and ending with a
search outside the employee’s craft, tour, and facility. The last step is a referral to the District Reasonable
Accommodation Committee (DRAC). The DRAC helps management to determine the eligibility of employees and
applicants for reasonable accommodation and assesses the availability and feasibility of specific accommodations.

                                                        6
Postal Service Injury Compensation Program                                                             HR-AR-13-004



person or did not use a committee to support return-to-work efforts. For example, the
Greater Boston District, which did not use a committee, had 493 periodic roll
employees, which is higher than the median.

During our audit, the Postal Service instructed the districts to implement a Rehabilitation
Program Committee (RPC) consisting of representatives from major functions and
chaired by the senior HRM specialist. RPCs would be used if the manager of an office
where an employee was officially assigned at the time of injury could not identify a
permanent modified assignment with that office. Medical restrictions of potential
program participants would be reviewed, placement priorities considered, and
recommended assignments drafted. The Postal Service is currently working on RPC
guidance to clearly define tasks and structure. Using RPCs should enhance
return-to -work efforts and reduce workers’ compensation costs.

Simplified Guidance

The Western Area developed an 18-page quick reference guide that helps specialists
with daily HRM activities, challenges, and case management. The current handbook,
which is provided as a reference guide to injury compensation personnel, is more than
400 pages, contains outdated language, and is difficult to use as a quick reference
guide. 18 Some specialists said they were either unaware of the handbook or did not use
it to perform their duties. Simplified guidance would help injury compensation personnel
better understand procedures and reduce the potential for errors.

Automated Reminders for Key Duties

The Postal Service primarily uses two systems to help manage workers’ compensation
claims: the Employee Health and Safety (EHS) system to create and help manage
accident and injury claims and the Injury Compensation Performance Analysis System
(ICPAS), which provides workers’ compensation data for analysis. However, neither
system provides automated reminders to alert HRM specialists of key follow-up
activities. Some officials stated the previous system 19 was better because it identified
whether the employee’s medical status was current and provided reminders for
monitoring medical progress, limited duty, separations, and other case management
tasks. Specialists currently track these tasks manually or use Microsoft Outlook.® As a
result, there is an increased risk that key tasks, such as obtaining updated medical
status for return-to-work considerations, could be overlooked or delayed. Automated
reminders would help ensure timely performance of important case management
activities.



18
   Handbook EL-505, United States Postal Service Injury Compensation, October 1995, updated with Postal Bulletin
revisions through July 20, 2006. Examples of outdated information include job banks for limited duty tasks; and
names of officials, offices, and systems including the Injury Compensation Control office, Postal Inspection Service,
Labor Distribution Code 68, and Human Resources Information System.
19
   Previously, the Postal Service used the Human Resource Information System and the Workers’ Compensation
Information Subsystem.

                                                          7
Postal Service Injury Compensation Program                                                          HR-AR-13-004



Performance Measures or Other Incentives

The Postal Service has not established specific performance measures or other
incentives for all district managers to ensure return-to-work efforts and associated cost
reductions are a district priority. Additionally, for FYs 2012 and 2013 Pay for
Performance (PFP), the Executive and Administrative Schedule field employees had no
core goal requirements and final ratings were based on corporate National Performance
Assessment (NPA) 20 indicators. NPA indicators do not include specific workers’
compensation measures. Further, although FY 2013 district goals 21 exist for periodic roll
reductions, district managers do not have specific performance measures related to the
workers’ compensation chargeback costs. As a result, competing district priorities could
adversely affect the HRM staff’s ability to effectively manage claims, return employees
to work, and reduce costs. Establishing performance measures or other incentives
would ensure that district managers are accountable for returning employees to work
and reducing the Postal Service’s long-term liability.

Claims Management Training

HRM managers and specialists in the six districts we visited have not received
adequate training in key areas of workers’ compensation administration and, as a result,
they may not fully understand their duties to manage claims. Our analysis of these
individuals' training records showed that training was lacking for basic case
management, the EHS system, limited duty, and third-party recoveries (see Table 4).
HRM staff also stated that they did not have sufficient training to understand case
management activities or the third-party recovery process, especially when determining
lien amounts and dealing with attorneys and related legal matters. Other HRM staff
expressed concerns about being self-taught, having only on-the-job training, or not
receiving formal classroom training. In a prior audit report, 22 we recommended — and
management agreed with — developing mandatory and refresher training for Postal
Service officials responsible for workers’ compensation to ensure they are aware of their
roles and responsibilities. During our audit, management stated they are still developing
training related to the recommendation; therefore, we are not recommending further
action at this time.




20
   The NPA is a stand-alone web-based program that collects performance-related metrics, such as retail revenue,
on-time Express Mail delivery, and so forth, from source systems across the organization. NPA supports the PFP
program.
21
   For FYs 2012 and 2013 PFP, no core goals were required for the HRM managers and specialists.
22
   Postal Service Workers’ Compensation Program, Report Number HR-AR-11-007, September 30, 2011.

                                                        8
 Postal Service Injury Compensation Program                                                              HR-AR-13-004




                                   Table 4 – Training Records Analysis
                                       Did not have                               Did not
                                        any basic                                    have
                                          injury                 Did not           limited         Did not have
                                      compensation              have EHS             duty           third-party
         District                        training                training         training            training
 Bay-Valley                                     0 of 5                1 of 5           0 of 5               4 of 5
 Central Pennsylvania                           0 of 3                1 of 3           0 of 3               1 of 3
 Central Plains                                 3 of 4                0 of 4           3 of 4               4 of 4
 Greater Boston                                 0 of 6                4 of 6           4 of 6               4 of 6
 New York                                       0 of 5                2 of 5           2 of 5               3 of 5
 Sacramento                                     2 of 6                6 of 6           4 of 6               5 of 6
 Total                                        5 of 29              14 of 29          13 of 29            19 of 29
Source: OIG analysis of training records.

 Inadequate resources and tools adversely affects the Postal Service’s ability to more
 effectively and efficiently manage claims, prevent fraud, return employees to work, and
 reduce workers’ compensation costs.

 Lean Six Sigma

 In 2012, the Postal Service began a Lean Six Sigma (LSS)23 initiative to streamline the
 workers’ compensation process and eliminate non-value adding activities. Although
 currently suspended, 24 preliminary information from this initiative further supports our
 audit results. For example, the LSS project charter indicates that HRM specialists are
 currently bogged down with transactional (no value added) tasks and activities. Further,
 time spent following up with information providers to comply with legal and policy
 requirements is inhibiting HRM staff’s ability to attend to more valuable but
 time-intensive endeavors, such as conducting case management, following up on
 third-party recoveries, and reviewing the periodic roll for opportunities to return
 individuals to work. The Postal Service also listed areas with the greatest impact on the
 workers’ compensation claims process, which include lack of thorough accident
 investigations, difficulty obtaining current medical information, and inconsistency in
 conducting work searches.

 As part of the LSS process, the Postal Service conducted a survey to understand root
 causes for problems to determine solutions. Survey participants were asked questions
 such as what frustrated them about their job and what information or changes could
 help make the workers' compensation process better. Responses included a lack of
 training, EHS not being user friendly, the large volume of data they are required to

 23
      LSS is a methodology used to improve the quality of processes by identifying and removing waste.
 24
      Postal Service officials indicated the LSS has been suspended to focus on return-to-work goals.

                                                            9
Postal Service Injury Compensation Program                                                              HR-AR-13-004



handle, not enough staff, tending to additional duties outside of case management, and
a need for closer coordination with physicians and updating the EHS system to be more
useful. The LSS team also determined that there was an inconsistent application of the
Injury Compensation Program, a lack of standardized operating rules across core
processes, as well as non-standardized, undefined outputs or process metrics.

External Best Practices

Recognizing that other organizations deal with workers’ compensation issues
similar to those of the Postal Service, we identified industry best practices for
administering workers’ compensation claims and reducing associated costs. We
contacted three federal agencies, four private sector and commercial companies,
two commercial insurance companies, two workers’ compensation third-party
administrators (TPA), and one monopolistic state workers’ compensation fund. 25 See
Appendix D for benchmarking organization profiles. Additionally, we obtained insight
from six recognized workers’ compensation experts. As a result of these efforts, we
determined there are external best practices that could provide benefits to the Postal
Service’s injury compensation program as described in Table 5.




25
  A statutorily established fund. In certain states, it is the only source of workers compensation insurance coverage
available.


                                                          10
 Postal Service Injury Compensation Program                                                          HR-AR-13-004




                                   Table 5 – External Best Practices

                         Allow specialists to focus exclusively on workers’ compensation
                         claims (no collateral duties).
        People
                         Increase training and education to Postal Service staff involved in the
                         workers’ compensation claims process.
                         Foster an environment of uniform claims handling procedures.
       Process
                         Conduct full investigations before forwarding claims to the OWCP.
                         Medical Management:
                              Incorporate nurse case managers on lost time claims.
                              Perform medical bill review/utilization reviews. 26
                              Move toward physician modeling and tracking of clinical
                                outcomes.
                         Return-To-Work:
                              Develop a database of job opportunities available for
                                alternative work.
        Tools
                              Create agreements with non-profit organizations to provide
                                alternative work arrangements.
                         Accountability:
                              Develop key metrics and monitor and communicate
                                performance.
                              Create accountability at the senior management level for
                                return of employees to work.
                              Develop cost allocation at the facility level.
                         Improve accuracy of data management.
                         Encourage electronic submission of forms and other documentation.
      Technology
                         Implement predictive modeling for early identification of potentially
                         severe claims.
Source: Deloitte Consulting LLP.

 Nurse Case Managers

 Benchmarking results show that nurse case managers are often instrumental in
 assisting employers with returning employees to work. Although there will be initial costs
 for case management, the outcomes of the claims are generally better with reduced
 costs. In the private sector, the use of nurse case managers usually involves an
 outsourced arrangement with vendors who employ nurses with strong occupational
 health backgrounds and expertise. These relationships often feature incentivized
 performance through the contract fee structure to provide savings. Additionally, the use
 of nurse case managers is effective when the nurse is involved early in the claim and
 receives the same first notice of injury as the OWCP. For example, one benchmarked
 federal agency contracts nurses responsible only for workers’ compensation claims

 26
   Clinical assessments of timeliness and appropriateness of treatments, which are performed according to
 experienced-based medical treatment protocols and disability duration guidelines.

                                                         11
Postal Service Injury Compensation Program                                                            HR-AR-13-004



duties. The agency claimed a reduction of about 30 percent in its OWCP chargeback
costs through the use of measures that included early intervention with contracted nurse
case managers. The Postal Service should include in the staffing analysis methods for
involving nurses more fully in case management or consider contracting out for nurse
case managers.

Non-Profit Organizations

Partnering with non-profit organizations is an emerging best practice in which employers
assign their injured workers to charitable, volunteer, and non-profit organizations when
restrictions prohibit meaningful and productive work with the employer. Organizations
like the American Red Cross, the Young Men’s Christian Association, Amtrak, local
museums, animal shelters, hospitals, and others participate in these programs. These
employee loaner programs allow injured workers to remain productive, retain the
discipline of going to work every day, and provide social programs with needed
resources. Because work provided to injured employees often accelerates recuperation
if they are as active as possible, opportunities may exist for the Postal Service to assign
employees to
non-profit organizations when work is otherwise not available.

Predictive Modeling
Predictive modeling is a well-established technology in the insurance industry and is
becoming a best practice in identifying and acting on high-severity and high-cost claims.
Results from the benchmarking study revealed that, typically, 20 percent of the most
severe claims represent 60 percent or more of total costs. A predictive model uses
sophisticated algorithms to effectively predict claim outcomes by level of exposure and
frequency and measures the correlation of variables to claim outcomes.

The use of predictive models can typically reduce costs. For example, the OIG Office of
Investigations (OI), supported by the Countermeasures and Performance Evaluations
(CAPE) team, has developed two predictive models to help identify high-risk claims. 27
Since March 2010, information from the CRAM has allowed agents to identify and focus
on potential problems, allowed them to work fewer hours to successfully resolve
investigations, and resulted in higher monetary impacts. Based on information from the
model, OI has initiated 102 cases and realized $9.5 million in recoveries, restitution, and
compensation payments avoided. The OI has used the CRAM in its workers’
compensation investigations.




27
   The CAPE team created the Claimant Risk Analysis Model (CRAM) and the Provider Risk Analysis Model (PRAM).
The CRAM uses a predictive statistical model and 25 common variables to identify claimants with a high risk of fraud.
The PRAM, started in January 2013, uses multiple advanced analytical techniques to identify medical providers most
likely to be fraudulent and deserving a deeper examination.

                                                         12
Postal Service Injury Compensation Program                                                           HR-AR-13-004



For example:

    The OI pursued a lead involving a Postal Service sales and services associate who
     received about $135,000 in workers’ compensation payments after alleging total
     disability. Agents found the associate was performing activities inconsistent with the
     capabilities communicated to the physician and the DOL. The DOL terminated the
     associate’s compensation benefits, realizing a savings of more than $690,000 for the
     Postal Service.

    The OI initiated an investigation for a letter carrier who filed a traumatic injury claim
     indicating she hurt her back. The DOL accepted the carrier’s claim and she received
     $2,982 in monthly compensation. Agents determined the carrier was capable of
     numerous activities, contradicting her ‘totally disabled’ status. As a result of the
     investigation, the carrier resigned from the Postal Service and the DOL removed the
     carrier from the daily roll, realizing a cost avoidance of $1,431,986.

Transportation reimbursement fraud is another area the OI successfully pursues via the
CRAM. 28 As part of their efforts, the CAPE team provides agents with monthly
transportation reimbursement reports by state to assist with identifying claimants with
high-dollar reimbursements. In addition, the CRAM provides the estimated distance
from the top three (by paid amount) providers for each claimant. Examples of cases
pursued by the OI as a result of CRAM queries include:

    A former letter carrier who plead guilty to fraud of more than $173,000 related to
     mileage, parking, and toll reimbursement claims from September 2007 through
     May 2012.

    An employee found guilty of fraudulently submitting mileage reimbursements for
     travel not related to medical appointments. An OI agent discovered the claimant was
     overpaid about $110,000.

    An employee who received more than $120,000 in travel reimbursement but did not
     travel to the location(s) listed on the claim form.

Efforts to Combat Fraud

In addition to the OIG using risk modeling to identify potential fraud, Postal Service
supervisors and HRM specialists have a responsibility to report and refer suspected
workers’ compensation fraud or abuse. To facilitate this process, the Postal Service
outlined procedures for identifying and referring such cases and investigation of these
cases helps reduce compensation costs.




28
   Under DOL policy, claimants are allowed to claim mileage reimbursement for driving their privately owned vehicles
to medical appointments. Transportation expenses can cover mileage, parking, tolls, and other related expenses.

                                                         13
Postal Service Injury Compensation Program                                     HR-AR-13-004



Special agents work closely with HRM staff on all phases of workers’ compensation
investigations and these efforts have resulted in numerous arrests and convictions,
including:

   $92 million in compensation payments avoided.
   487 fraud investigations resolved.
   19 arrests.
   30 indictments.
   24 convictions.
   83 personnel actions by management.

Examples of cases pursued by the OIG include:

   A letter carrier who received compensation for 3 years after falsely reporting that she
    had no employment. The OIG found the letter carrier was employed by the City of
    Oakland Fire Department as a dispatcher and also earned income with Solano
    County In-Home Support Services as a service provider. The investigation resulted
    in $1,541,403 of cost avoidance.

   A rural carrier who filed a claim for an on-the-job injury to her back and was placed
    in a limited duty work status by her treating physician. Video surveillance conducted
    by agents showed the carrier repeatedly exceeding her medical restrictions. Agents
    determined the rural carrier participated in at least 80 separate marathons and
    triathlons since claiming her injury. As a result of the investigation, the Postal
    Service terminated the rural carrier, resulting in a cost avoidance of more than
    $140,000.

   A rural carrier who received workers’ compensation was operating three businesses,
    working as a male escort, and going to college for a fitness degree. The carrier was
    convicted of fraud and ordered to pay $64,000 in restitution. He also lost his job and
    OWCP benefits. As a result of the OIG investigation, the Postal Service saved
    $1 million in future payments.

Recommendations

We recommend the chief human resources officer and executive vice president, in
coordination with the chief operating officer and executive vice president:

1. Conduct a formal staffing analysis to determine the number and type of employees
   needed to handle workers’ compensation claims, including health and resource
   management specialists, internal or contract nurses, specially trained or contract
   third-party recovery specialists, or other support personnel; and adjust staffing
   accordingly.

2. Establish performance measures or other incentives for district managers based on
   chargeback reductions.


                                             14
Postal Service Injury Compensation Program                                     HR-AR-13-004




3. Complete implementation of Rehabilitation Program Committees nationwide to
   include developing standard guidelines to facilitate returning injured employees to
   work.

We recommend the acting vice president, Employee Resource Management:

4. Complete nationwide implementation of the Web Employee Search Program to
   provide a more efficient and effective process for identifying and assigning available
   work for injured employees.

5. Develop a simplified and standardized quick reference guide of key process steps
   to help district health and resource management staff effectively perform their
   duties.

6. Enhance the Employee Health and Safety system to provide automated reminders
   for important case management activities.

7. Explore the benefits of partnerships through the U.S. Department of Labor with
   non-profit organizations to facilitate injured employees returning to work.

8. Evaluate how predictive analytics can be used to support claims management
   activities and reduce costs.

Management’s Comments

Management agreed with recommendations 1 through 5 and 8, but disagreed with
recommendations 6 and 7. Also, in separate correspondence management stated that
they neither agreed nor disagreed with the monetary amounts. Although they agreed
that savings would be achieved through further training and legislative changes to the
FECA system, they stated they were unable to confirm the amounts provided in the
report.

Regarding recommendation 1, Safety and Health personnel will present a revised
staffing plan to management for consideration and, in the interim, is providing training to
field personnel on effective use of existing staff. Management plans to complete the
staffing analysis by October 1, 2013. Regarding recommendation 2, management
agreed to develop performance goals and is working to establish an NPA unit indicator
goal for district managers to reduce compensation expenses by 3 percent by
October 1, 2013. Regarding recommendation 3, management plans to distribute a best
practice standard operating procedure regarding RPCs to all field locations by
October 1, 2013.

Regarding recommendation 4, management will roll out the WebESP to each area
individually by March 31, 2014. Regarding recommendation 5, management created a
working group to prepare and distribute revised reference documents to all field
personnel and expects to complete these actions by October 1, 2013. Regarding

                                             15
Postal Service Injury Compensation Program                                        HR-AR-13-004



recommendation 8, management has already begun using systems and active analysis
of data to bring issues and cases to the attention of those with authority to impact future
benefits.

Regarding recommendation 6, management stated that automated reminders were not
included due to resource constraints, server capacity, and funding. They advised that,
currently, other functional enhancements to the EHS system are a priority, but agreed to
consider automated reminders after those are in place. In the interim, they agreed to
develop a methodology for managing claims more effectively and timely as part of the
standard operating procedure distributed to field personnel.

Regarding recommendation 7, management stated that partnering with non-profit
organizations to facilitate returning injured employees to work would not reduce the
compensation payable to the employee. In addition, they stated the FECA already
provides medical rehabilitation services at a lower cost to the Postal Service than the
vocational rehabilitation process. See Appendix E for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
recommendation 6, we recognize funding priorities and believe the Postal Service’s plan
to include a methodology for managing claims as part of the standard operating
procedure meets the intent of the recommendation.

Regarding recommendation 7, we continue to believe partnerships with non-profit
organizations through the DOL would help facilitate and enhance return-to-work efforts.
The best practice of using non-profit agencies would allow injured employees to
continue to be productive and retain the discipline of going to work every day. DOL’s
OWCP is responsible for decisions to partner with non-profit organizations and,
therefore, we will not pursue the issue further. However, we encourage management to
promote the opportunity to the DOL, as appropriate.

Regarding recommendation 8, we agree that active analysis of workers' compensation
data can enhance claims management, but need additional information before closing
the recommendation. One recent concern is that the DOL suspended the Postal
Service's access to electronic data gathered under the FECA.

We consider the monetary impact a conservative estimate of the cost reductions that
could be realized through implementation of the recommendations. We did not include
employees formally determined to have no wage-earning capacity or re-employment
potential for the indefinite future. Additionally, we only quantified savings for 31 of the 67
Postal Service districts and reduced the amounts by the cost associated with potential
resource investments or additions.



                                              16
Postal Service Injury Compensation Program                                 HR-AR-13-004



The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed. Recommendations 6 and 7, will be
considered closed with the issuance of this report.




                                             17
Postal Service Injury Compensation Program                                      HR-AR-13-004




                            Appendix A: Additional Information

Background

Postal Service employees are covered by the FECA. The DOL’s OWCP administers the
FECA and determines the injured worker’s eligibility for benefits. The OWCP has
12 district offices across the U.S. Each district has a director and two or more
supervisory claims examiners or claims managers who are responsible for the operation
of individual units. Each unit, staffed with senior claims examiners and claims
examiners, is primarily responsible for rendering decisions and managing OWCP
claims.

The OWCP has exclusive authority, except as otherwise provided by law, for
administration, implementation, and enforcement of the FECA. Its main responsibility is
to determine whether a claimant is eligible for benefits under FECA. If eligible, the
OWCP provides benefit payments directly to providers, claimants, and beneficiaries.
The Postal Service reimburses the OWCP for these costs and an associated
administrative fee. The OWCP is also responsible for obtaining medical and
non-medical evidence to determine the need for continued benefit payments. As of
May 10, 2013, over 20,000 employees receive benefit payments, including 181 between
the ages of 90 and 99, and two over the age of 100.

The primary role of the Postal Service’s Injury Compensation Program is to assist
injured workers with completing and submitting compensation claims to the OWCP and
to facilitate their return to the workplace. The director of Safety and Health, through the
vice president of Employee Resource Management, establishes policies and
procedures for the Postal Service’s Injury Compensation Program. Area human
resources managers implement the program and oversee area-wide program activities
to ensure compliance. Additionally, headquarters HRM analysts oversee area-wide
OWCP activity, provide technical assistance, and manage and oversee cost-reduction
initiatives. Nationally, district HRM managers and specialists administer the Injury
Compensation Program; however, first-line supervisors perform claims management
immediately following an injury, including accident investigations. Injured employees or
persons acting on behalf of employees must notify the immediate supervisor of the
injury and file the initial claim forms within the specified timeframes. The Postal Service
incurred more than $1.3 billion in workers' compensation costs and more than $68
million in administrative fees for chargeback year 2012.

After claims are filed, the Postal Service relies on the OWCP to determine injured
employees’ eligibility for benefits and manage workers’ compensation cases.
In recent years, the U.S. Government Accountability Office (GAO), the Postal Service
OIG, and the DOL OIG conducted audits related to the workers’ compensation program
and identified program challenges which could affect the Postal Service’s ability to
manage its workers’ compensation costs.



                                             18
Postal Service Injury Compensation Program                                                            HR-AR-13-004



These audits identified issues facing the DOL, including the need to:

    Improve oversight to manage long-term disability cases.

    Improve the DOL’s responsiveness to reported fraudulent workers’ compensation
     claims.

    Provide Postal Service OIG investigators timely access to case file information.

    Terminate benefits when DOL is notified of a claimant’s death.

    Have performance measures for payment accuracy.

    Have adequate internal controls to prevent unreasonable and unallowable
     transportation cost reimbursements to FECA claimants.

The OIG performs audits of Postal Service programs to help determine whether they
are efficient and cost-effective and has the authority and responsibility to investigate
workers’ compensation fraud for Postal Service employees. Investigations help prevent
and detect fraud, waste, and misconduct and have a deterrent effect on postal crimes.

Objectives, Scope, and Methodology

Our objectives were to assess the Postal Service’s administration of workers’
compensation claims and identify opportunities for reducing workers’ compensation
costs by implementing internal or external best practices.

The scope of the audit covered the Postal Service’s Injury Compensation Program in
judgmentally selected areas and districts. Specifically, we analyzed Postal Service
district performance data in the key areas of workers’ compensation administration and,
based on two indicators, 29 we judgmentally selected three high- and five low-performing
districts, as shown in Table 7.




29
   The districts' percentage of periodic roll employees to total employee complement and the Postal Service's analysis
of compensation cases to average district workhours.

                                                         19
Postal Service Injury Compensation Program                                                            HR-AR-13-004




                                       Table 7 – Fieldwork Locations

                           Area                                             District
                                                                  30
              Capital Metro                              Capital
              Eastern                                    Central Pennsylvania
              Northeast                                  Greater Boston
              Northeast                                  New York
              Pacific                                    Bay-Valley
              Pacific                                    Sacramento
              Western                                    Central Plains
              Western                                    Colorado/Wyoming
             Source: OIG analysis.


Our areas of review included, but were not limited to, return-to-work efforts, third-party
recoveries, fraud and abuse mitigation, and other program administration duties. To
accomplish our objectives, we:

      Used a contractor to identify external industry best practices.

      Interviewed Postal Service officials responsible for the Injury Compensation Program
       at Postal Service Headquarters, area, and district levels, as appropriate, to
       understand their roles and responsibilities and identify program challenges or
       enhancements.

      Identified and gained an understanding of regulations, policies, and procedures
       applicable to workers’ compensation.

      Analyzed 182 judgmentally selected case files to determine whether select case
       management activities were completed in accordance with regulations, policies, and
       procedures.

      Identified internal best practices and tools used in select districts.

      Reviewed nationwide district HRM specialist staffing to determine whether districts
       met the current Postal Service staffing guidance for specialists and compared the
       results with our district periodic roll rankings. 31

      Reviewed job-related training taken by HRM managers and specialists in selected
       districts.


30
     We conducted limited survey work in the Capital and Colorado/Wyoming districts.
31
     We ranked each district based on the percentage of periodic roll employees to the total employee complement.


                                                          20
Postal Service Injury Compensation Program                                     HR-AR-13-004



   Identified and obtained an understanding of initiatives or programs related to
    workers’ compensation such as:

    o   LSS.
    o   Investigating injury and illness claims.
    o   Addressing fraud and abuse by claimants and providers.
    o   Monitoring medical status and restrictions.
    o   Returning employees to work.
    o   Pursuing third-party recoveries.

   Obtained and reviewed available workers’ compensation statistics, such as costs,
    daily and periodic roll numbers, cost savings, recovery initiatives and results, and
    other related information.

   Identified challenges related to the DOL based on available information such as
    external audits or Postal Service feedback.

   Identified data systems used by the DOL and the Postal Service and related
    challenges to case management activities.

We conducted this performance audit from June 2012 through July 2013 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 3, 2013, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data, reviewing existing information about the data and the
system that produced the data, and comparing the data to manual documentation and
other systems with similar data elements. We determined that the data were sufficiently
reliable for the purposes of this report.




                                             21
Postal Service Injury Compensation Program                                           HR-AR-13-004




Prior Audit Coverage

                                                                                 Monetary
         Report Title           Report Number          Final Report Date          Impact
 Workers' Compensation
                                 HR-AR-13-001              12/24/2012              None
 Data Systems
 Report Results:
 The Postal Service OIG determined the EHS system does not always provide accurate and
 reliable information. Additionally, management could enhance the ICPAS reporting
 functions for effective analysis and decision making. The inaccuracies in EHS occurred
 because employees entering data into the system were not always sufficiently trained and
 did not comply with workers’ compensation procedures. In addition, because of system
 limitations, ICPAS did not provide the reports that management needs to help the
 organization recognize program deficiencies. We recommended management provide
 additional training for personnel responsible for entering EHS data, issue supplemental
 guidance, and enhance internal controls to ensure that responsible officials consistently
 adhere to claims management procedures. We also recommended management assess
 options to enhance and integrate the reporting capabilities of ICPAS to provide the data
 necessary for effective analysis and decision making. Management agreed with all of our
 recommendations.


 Controls Over
 Transportation Cost
                              03-12-003-04-
 Reimbursements to                                   9/28/2012                 $3,771
                                   431
 FECA Claimants Need
 Strengthening
 Report Results:
 The DOL OIG determined OWCP did not comply with policies and procedures for reviewing
 and authorizing transportation claims and its controls were inadequate. Also, FECA
 claimants with large amounts of transportation payments committed abuse, and potential
 fraud, and large single reimbursements were improperly paid. Specifically, transportation
 claims were paid without any review or without any receipts. Reviews of other files found bill
 processing errors and inflated mileage that resulted in overpayment. These conditions
 occurred in part because the OWCP did not comply with its policies and procedures for
 reviewing and authorizing transportation claims, and the policies and procedures did not
 comply with FECA regulations.




                                               22
Postal Service Injury Compensation Program                                        HR-AR-13-004




                                               Final Report
     Report Title         Report Number            Date               Monetary Impact
 Federal Employees’
 Compensation Act:
 Status of Previously
                           GAO-12-508R           3/21/2012                  None
 Identified
 Management
 Challenges
 Report Results:
 The GAO found DOL and the inspectors general from employing departments and agencies
 have consistently reported similar FECA program management challenges, such as
 oversight and information technology, and have linked these to increased program costs
 through improper payments.

 OWCP's Efforts to
 Detect and Prevent
 FECA Improper                03-12-001-04-
                                                      2/15/2012                  None
 Payments Have Not                 431
 Addressed Known
 Weaknesses
 Report Results:
 The DOL OIG found that the OWCP did not determine an improper payment estimation
 method that meets the requirements of the Improper Payments Elimination and Recovery
 Act, did not have plans to use program performance, did not always take timely action to
 terminate benefits, did not have sufficient control procedures to ensure that benefit
 payments are reduced for FECA claimants collecting Social Security Administration
 retirement, and did not include improper payment procedures to its enhanced training
 curriculums.




                                             23
Postal Service Injury Compensation Program                                          HR-AR-13-004




                                   Report
        Report Title              Number         Final Report Date          Monetary Impact
 Federal Employees'
 Compensation Act -
 Preliminary
                               GAO-12-402            1/25/2012                   None
 Observations on
 Fraud-Prevention
 Controls
 Report Results:
 The GAO found that limited access to necessary data is potentially reducing agencies’
 ability to effectively monitor claims and wage loss information. In addition, agencies’
 reliance on self-reported data related to wages and dependent status, lack of a
 government-selected physician throughout the process, and difficulties associated with
 successful investigations and prosecutions all potentially reduce the program’s ability to
 prevent and detect fraudulent activity. DOL and employing agencies generally agreed with
 the preliminary findings presented in this report. The GAO planned to follow up on the
 promising practices and potential vulnerabilities as part of its ongoing work, although the
 progress has been slowed by difficulty in accessing certain databases.

 Postal Service Workers’        HR-AR-11-
                                                      9/30/2011            $335 million a year
 Compensation Program               007
 Report Results:
 We found workers’ compensation claims were not always handled effectively and efficiently.
 Specifically, FECA reform was needed to improve the federal Workers’ Compensation
 Program by implementing controls and efficiencies used in the private sector. Also,
 opportunities existed to improve claims management in the three districts we reviewed,
 strengthen billing guidelines for providers, reduce program abuses, and revise the
 methodology used to determine the Postal Service’s administrative fee. The OIG
 recommended, and management agreed to, pursuing legislative change to transform,
 amend, and reform FECA. Management also agreed to provide training; however, they did
 not agree with our recommendation to request changes to allow employing agencies to
 present evidence at hearings, clarify responsibilities for fraud detection, and establish a
 45-day response time for cases.




                                              24
Postal Service Injury Compensation Program                                        HR-AR-13-004




                                   Report
          Report Title             Number      Final Report Date         Monetary Impact
 Veterans Health
 Administration Audit of       10-03850-
                                                   9/30/2011               $334 million
 Workers’ Compensation            298
 Case Management
 Report Results:
 Since 2001, the Veterans Health Administration has nearly doubled its timeliness in
 initiating Workers’ Compensation Program claims; however, claims initiation was not always
 accurate due to inadequate oversight to ensure evidence existed for submitted claims.

 Retirement for U.S.
 Postal Service
 Employees on                 HR-MA-11-001           4/22/2011               $378 million
 Workers’
 Compensation
 Report Results:
 We found 82 percent (2,290 of 2,798) of employees on the periodic roll age 65 and over
 were classified as having no re-employment potential or permanent or prolonged
 disabilities; however, they continue to receive workers’ compensation benefits, which were
 more than what they would generally receive from federal retirement benefits. Although not
 intended, workers' compensation has become a retirement system for many disabled,
 retirement age Postal Service employees, resulting in loss of productivity and higher
 workers’ compensation costs. We recommended, and management agreed, to continue to
 pursue legislative change to reform FECA to reduce workers’ compensation benefits for
 retirement age employees.




                                             25
Postal Service Injury Compensation Program                                                               HR-AR-13-004



                                      Appendix B: Monetary Impact

            Recommendations                           Impact Category                         Amount

             1, 2, 3, 4, 5, and 6               Funds Put to Better Use 32                $171,632,049


We calculated a conservative 33 cost savings by reducing the number of employees on
the periodic roll by 3,412 for those districts that were above the mean 34 percentage
nationwide. 35 The amount represents the savings over a 2-year period if each district
above the mean percentage reduced its periodic roll employees to the nationwide
average. We used data from the Postal Injury Compensation System, ICPAS, and the
Limited Duty Rehabilitation report to calculate our cost savings. Specifically, we:

    Calculated the percentage of periodic roll (PR and PW) 36 employees to total
     on-the-rolls employees for each district by dividing the number of periodic roll
     employees by total on-the-rolls employees.

    Ranked each district according to its percentage.

    Calculated the percentage of reductions to the periodic roll for each district:

     o For all 67 districts, calculated the mean percentage of periodic roll to total
       on-the-rolls employees (2.23 percent).

     o Determined the number of districts above the mean (31 districts). 37

     o For those districts above the mean, calculated the difference between the district
       percentage and the mean percentage (district percentage minus 2.23 percent).

     o For those districts above the mean, determined the percentage reduction needed
       to be at the mean (each district’s difference divided by their actual percentage). 38



32
   Funds that could be used more efficiently by implementing recommended actions.
33
   To provide a conservative approach, we did not include employees formally determined to have no wage-earning
capacity or re-employment potential for the indefinite future. Additionally, we only quantified savings for 31 districts
and reduced the amount by the cost associated with potential resource investments or additions.
34
   The mean is the arithmetic average of a set of values. It is equal to the sum of the values divided by the number of
values.
35
   We calculated the number of periodic roll employees for all districts as a percentage of on-the-rolls employees as
of June 2012. We determined that 31 of 67 districts were above the mean percentage.
36
   Case status code ‘PR’ identifies employees whose wage-earning capacity is not determined. Case status code
‘PW’ identifies employees who have a loss of wage-earning capacity. ‘PN’ identifies employees who have been
determined to have no wage-earning or re-employment capacity for an indefinite future. To be conservative, we did
not include ‘PN’ employees because they are not likely to return to work.
37
   No districts from the Western Area were above the mean.
38
   The percentage of reduction needed to be at the mean ranged from 1.11 to 62.99 percent. The overall calculated
reduction to the periodic roll for the 31 districts are below the Postal Service’s FY 2013 goals.

                                                           26
Postal Service Injury Compensation Program                                                       HR-AR-13-004




    Determined the periodic roll compensation cost for each district above the mean
     percentage for a 12-month period. 39

    Calculated the gross compensation cost savings for each district above the mean
     percentage by multiplying each district’s reduction percentage by its respective
     compensation cost for a 12-month period.

    Calculated the net compensation cost savings by reducing the gross amount by an
     estimate of costs associated with potential resource investments. 40




39
  The compensation period covered November 2011 through October 2012 and ranged from $9.5 to $16 million.
40
  To provide a conservative savings calculation, we made assumptions for potentially adding or investing in
resources as a result of our recommendations which total about $40 million.

                                                      27
Postal Service Injury Compensation Program                                                                 HR-AR-13-004



                                  Appendix C: Blog and Survey Results

We published a blog41 seeking feedback from HRM staff on their experiences and
challenges with the Injury Compensation Program. Feedback received included:
      The EHS system is not user friendly.
      Reductions in staff have led to lack of case management.
      HRM specialists need more time to focus on case management.
      Nationwide standard operating procedures are needed.

We also surveyed district HRM employees nationwide to determine their agreement
with statements regarding the Injury Compensation Program. Of the 300 employees
surveyed, we received 36 responses (12 percent) as shown in Table 8.

            Table 8 – HRM Analyst/Specialist/Manager Survey Responses

                                   Mostly Somewhat                              Somewhat           Mostly
          Statement                                               Neither
                                   Agree    Agree                                Disagree         Disagree
Postal Service nurses
should have a more
active role in
supporting the HRM
function to review and
interpret medical
                                      24               9              2               0                1
documentation and
contacting treating
physicians to obtain
clarification of status
and restrictions for
employees.
There are not enough
specialists to process
                                      23               5              1               4                3
and manage injured-
on-duty claims.
Supervisors or other
officials outside of
HRM are not doing
their part to provide
                                      22               9              5               0                0
critical information or
performing needed
tasks.




41
     We did not authenticate survey respondents; however, we did target HRM officials for participation.

                                                            28
 Postal Service Injury Compensation Program                                       HR-AR-13-004



                             Mostly Somewhat                      Somewhat     Mostly
        Statement                                       Neither
                             Agree    Agree                        Disagree   Disagree
 Our HRM office has to
 perform work that is
 not directly related to
 workers'
 compensation duties            15            12          4           2          3
 and the work
 interferes with our
 ability to manage
 cases.
 Clerks should be used
 to support the HRM
 function to perform
                                15            4           3           1         13
 lower level tasks, such
 as filing and other
 clerical work.
Source: OIG analysis.




                                                   29
    Postal Service Injury Compensation Program                                                            HR-AR-13-004



                            Appendix D: Benchmarking Organization Profiles


                  High-Level Description of            Approximate       Unionized    Annual
 Category                                                                                    Geography of            Industry
                        Operations                     Number of         Workforce    Sales/
                                                                                              Operations
                                                       Employees                     Revenue

                 A global, U.S.-based beverage
                 company that engages in the
 Private/        manufacture, marketing, and                                          $50–100
                 sale of non-alcoholic beverages     100,000–250,000       Partial                   International   Beverage
Commercial                                                                             billion
                 worldwide; self-insured for
                 workers' compensation
                 exposures.

                 Top retailer that operates
 Private/        general merchandise stores in                                        $50–100
                 the U.S.; self-insured for          250,000–500,000        No                        U.S.             Retail
Commercial                                                                             billion
                 workers’ compensation
                 exposures.

                 U.S.-based food service
                 company that, with its
 Private/        subsidiaries, operates quick                                          $10–50
                 service restaurants in the U.S.      50,000–100,000        No                       International   Restaurant
Commercial                                                                              billion
                 and internationally; self-insured
                 for workers' compensation
                 exposures.

                 Large U.S.-based retailer with
                 stores in various formats
                 worldwide. It operates retail
                 stores, restaurants, discount                                                                       Discount,
 Private/        stores, supermarkets,                                               More than
                                                     More than 500,000     Partial                   International    variety
Commercial       supercenters, hypermarkets,                                         $250 billion
                                                                                                                      stores
                 warehouse clubs, apparel
                 stores, and neighborhood
                 markets, as well as online web
                 stores.

                 Leading global property,
  Insurers/      casualty, and general insurance
                 organization with more than                                                                            P&C
 Third-Party                                              44,000            N/A      $40.7 billion   International
                 44,000 employees serving more                                                                       Insurance
Administrators
                 than 70 million clients around
                 the world.

                 Global property and casualty
                 insurer providing multiple lines                                                                       P&C
Insurers/TPAs                                             10,100            N/A      $13.5 billion   International
                 of coverage to businesses and                                                                       Insurance
                 individuals.




                                                               30
 Postal Service Injury Compensation Program                                                           HR-AR-13-004




                     High-Level Description        Approximate     Unionized    Annual        Geography
     Category                                       Number of                   Sales/            of            Industry
                         of Operations                             Workforce
                                                    Employees                  Revenue        Operations



                    Large TPA that provides
                    cost-effective claims
                    administration, managed
                    care, program management
                    and related services                                                        U.S. and
  Insurers/TPAs                                    8,500 clients      N/A      $808 million                   P&C Insurance
                    through the expertise of                                                    Canada
                    nearly 10,000 in more than
                    150 offices and service
                    locations in the U.S. and
                    Canada.

                    Large property/casualty
                    TPA offering enlightening
                    insights and services in the
                    areas of claims
                    management, information
  Insurers/TPAs     management, medical cost       4,300 clients      N/A      $401 million   International   P&C Insurance
                    containment, and
                    consultative services, which
                    includes risk control
                    consulting and appraisal
                    services.
                    Competitive state fund that
    State Funds     acts as an autonomous            26,000                    $174 million                    Monopolistic
     Agencies       workers' compensation                             N/A                      Mono-state
                                                    employers                  net premium                      state fund
                    insurance entity supported
                    solely from its own revenue.
                    Secures the nation’s
  Transportation
                    airports and screens all        More than
     Security                                                         Yes          N/A            U.S.           Federal
                    commercial airline               58,000
  Administration
                    passengers and baggage.


                    The largest integrated
 Veterans Health    health care system in the       More than
                    U.S., with more than 1,700                        Yes          N/A            U.S.           Federal
 Administration                                      53,000
                    care sites, serving 8.3
                    million veterans each year.


                   The U.S. Department of
                   Agriculture’s Forest Service
  U.S. Forest      is a federal agency that           30,000         Yes           N/A            U.S.           Federal
    Service        manages public lands in
                   national forests and
                   grasslands.
Source: OIG analysis.




                                                          31
Postal Service Injury Compensation Program                    HR-AR-13-004



                          Appendix E: Management's Comments




                                             32
Postal Service Injury Compensation Program        HR-AR-13-004




                                             33
Postal Service Injury Compensation Program        HR-AR-13-004




                                             34
Postal Service Injury Compensation Program        HR-AR-13-004




                                             35
Postal Service Injury Compensation Program        HR-AR-13-004




                                             36
